WAIVE

Supreme Court, U.S.
FILED

MAR 3 1 2021

SUPREME COURT OF THE UNITED STAT
No.

OFFICE OF THE CLERK

20-1361

Regina B. Heisler, Individually and as the
Executrix of the Succession of Frederick P. Heisler

(Petitioner)

Girod LoanCo, LLC
V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
C)

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

0

Signature:
Date:

03/

all ~2t

(Type or print) Name J. Eric Lockridge
0 Mr.

0 Ms.

0 Mrs.

Firm

Kean Miller LLP

Address

400 Convention Street, Suite 700

City & State

Baton Rouge, LA

Phone

225-389-3751

0 Miss

Zip 70802
Email eric.lockridge@keanmiller.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
r is re uired.
name(s) of the recipient(s) of a copy of this form. No additional certificate of service
Henry L. Klein
CC:

CEIVED
APR - 2 2021
OFFICE 0 TFIE CLERK
UPt EM URT

